HHS/OIG, Audit -"Review of Corrective Actions To Improve the Comprehensive Error Rate Testing Process for Obtaining Medical Records,"(A-03-04-00005)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Corrective Actions To Improve the Comprehensive Error Rate
Testing Process for Obtaining Medical Records," (A-03-04-00005)
June 2, 2004
Complete
Text of Report is available in PDF format (222 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During Fiscal Year 2003 the Centers for Medicare and Medicaid Services (CMS) experienced a significant
problem with providers that did not respond to requests for medical records for use in developing the Medicare payment
error rate.  The objective of this review was to evaluate the adequacy of CMSs corrective actions to improve the
process for obtaining medical records.  The CMS has implemented a number of corrective actions to improve this process.  Based
on our review of data for the first three quarters of the fiscal year 2004 error rate sample, these corrective actions
appear to have increased provider responsiveness to requests for medical records.  However, as of April 8, 2004, providers
had still failed to submit medical records supporting 2,239 of the 126,618 claims in the fiscal year 2004 sample, despite
repeated requests for the records.  Therefore, we have initiated an indepth review to determine why providers failed
to respond.  Additionally, as part of our broader evaluation of the program, we will further assess the impact of
CMSs corrective actions.